OPINION ON PRINCIPAL FINANCIAL STATEMENTS

In accordance with the Chief Financial Officers Act of 1990, we audited FWS’s principal
financial statements for the fiscal year ended September 30, 1999 as contained in FWS’s
accompanying 1999 Annual Report. These financial statements are the responsibility of FWS,
and our responsibility is to express an opinion, based on our audit, on these principal financial
statements.

Our audit was conducted in accordance with the "Government Auditing Standards," issued by
the Comptroller General of the United States, and with Office of Management and Budget
Bulletin 98-08, "Audit Requirements for Federal Financial Statements," as amended. These
audit standards require that we plan and perform the audit to obtain reasonable assurance as
to whether the accompanying principal financial statements are free of material misstatement.
An audit includes examining, on a test basis, evidence supporting the amounts and disclosures
contained in the principal financial statements and the accompanying notes. An audit also
includes assessing the accounting principles used and the significant estimates made by
management. We believe that our audit work provides a reasonable basis for our opinion.

In our opinion, the principal financial statements (pages 40-45) present fairly, in all material
respects, the financial position of FWS as of September 30, 1999 and its consolidated net cost,
changes in net position, budgetary resources and outlays, and financing for the fiscal year
ended September 30, 1999 in conformity with generally accepted accounting principles.

REPORT ON INTERNAL CONTROLS

Our audit was conducted in accordance with the "Government Auditing Standards," issued by
the Comptroller General of the United States, and with Office of Management and Budget
Bulletin 98-08.

Management of FWS is responsible for establishing and maintaining an internal control
structure which provides reasonable assurance that the following objectives are met:

       - Transactions are properly recorded, processed, and summarized to permit the
preparation of the principal financial statements and the required supplementary stewardship
information in accordance with Federal accounting standards.

        - Assets are safeguarded against loss from unauthorized acquisition, use, or
disposition.

        - Transactions are executed in accordance with (1) laws governing the use of budget
authority and with other laws and regulations that could have a direct and material effect on
the principal financial statements and the supplemental statements of net cost and changes in
net position and (2) any other laws, regulations, and Governmentwide policies identified by
the Office of Management and Budget.




                                               2
       - Transactions and other data that support reported performance measures are
properly recorded, processed, and summarized to permit the preparation of performance
information in accordance with criteria stated by management.

Because of inherent limitations in any internal control structure, errors or fraud may occur and
not be detected. Also, projections of any evaluation of the internal controls over financial
reporting to future periods are subject to the risk that the internal controls may become
inadequate because of changes in conditions or that the degree of compliance with the policies
or procedures may deteriorate.

In planning and performing our audit, we considered FWS’s internal controls over financial
reporting by obtaining an understanding of FWS’s internal controls, determined whether these
internal controls had been placed in operation, assessed control risks, and performed tests of
controls in order to determine our auditing procedures for the purpose of expressing an
opinion on the principal financial statements and the supplemental statements of net cost and
changes in net position and not to provide assurance on the internal controls over financial
reporting. Consequently, we do not express an opinion on internal controls.

Our consideration of the internal controls over financial reporting would not necessarily
disclose all matters in the internal control structure over financial reporting that might be
reportable conditions. Under standards established by the American Institute of Certified
Public Accountants and by Office of Management and Budget Bulletin 98-08, reportable
conditions are matters coming to our attention relating to significant deficiencies in the design
or operation of the internal controls that, in our judgment, could adversely affect FWS’s ability
to record, process, summarize, and report financial data consistent with the assertions made
by management in the principal financial statements. Material weaknesses are reportable
conditions in which the design or operation of one or more of the internal control components
does not reduce to a relatively low level the risk that misstatements in amounts that would be
material in relation to the financial statements being audited may occur and not be detected
within a timely period by employees in the normal course of performing their assigned
functions. However, we noted matters concerning internal controls and their operation that
we consider to be material weaknesses as defined in the preceding sentence. These material
weaknesses are described in the paragraphs that follow.

A. Design of Interface for Federal Aid Undelivered Orders

FWS did not have procedures to accurately and timely update the Undelivered Orders
general ledger account related to Federal aid grants to states. Federal Aid Program personnel
accounted for the grants to states in a subsidiary system maintained in each FWS regional
office and used it to manage the Program. The subsidiary system recorded the original entry
for the amount of each new grant and disbursements of grant funds to states based on
information from the Department of Health and Human Services Payment Management
System on a daily basis. States accessed the Payment Management System for grant
disbursements once the FWS regional offices input the grant data into the Payment
Management System and authorized the personnel at Health and Human Services to begin




                                               3
the disbursement process. FWS had designed an electronic interface between the Payment
Management System and the official financial system (FFS), but the interface did not
recognize reductions in undelivered orders resulting from grant closeouts or grant amendments.
Additionally, there was a 1-month delay before Payment Management System data updated
FFS. This led to additional errors in FFS when regional Program personnel tried to reconcile
the subsidiary system with FFS each month because many entries recorded in the subsidiary
system had not yet been recorded in FFS. When Program personnel found a missing
transaction in FFS, they would initiate manual adjustments to FFS to correct what they
perceived to be errors. Later, FFS would be updated with the electronic interface, which
resulted in many transactions being duplicated in FFS. To identify and correct the errors,
FWS, in October 1999, established a team of finance and Program personnel to reconcile FFS
to the subsidiary system. This effort resulted in a net adjustment to decrease the Undelivered
Orders account by $23.9 million.

Recommendation

We recommend that the Director, FWS, redesign the electronic interface between FFS and the
Payment Management System to produce accurate and timely information to update the
Undelivered Orders general ledger account. Also, the delay in updating FFS with the
electronic interface should be eliminated, and written procedures should be developed to
reconcile FFS to the subsidiary system. Management should also conduct reviews to ensure
that data are accurate.

       FWS Response: FWS concurred with this finding, stating that it has "completely
redesigned" the interface program and that it is "currently being tested." FWS said the new
system is scheduled for implementation in July 2000.

B. Documentation To Support Federal Aid State Grant Costs Incurred

During fiscal year 1999, FWS allowed Federal aid grantees to draw down $424 million on
letters of credit for approved grant amounts without requiring all grantees to periodically
submit documentation on costs actually incurred. According to the draft Grant Financial
System Requirements Manual, published by the Joint Financial Management Improvement
Program, an agency’s grant financial management system should document the timing of
grantees’ cash flows, the amounts disbursed to grantees during the year, and the costs actually
incurred by the grantees. Although FWS obtained documentation for the approximately 1,300
grants that were closed out during the year, it did not obtain documentation that costs were
incurred prior to cash drawdowns for the approximately 3,500 grants that remained open at
fiscal year-end. Consequently, FWS could not verify that the payments were for costs incurred
or for advances. To provide support for the grant payments on open grants that we sampled,
FWS, in a special mailing to grantees, requested grantees to confirm that the drawdowns were
for costs actually incurred. The grantees verified that the drawdowns were for costs incurred.




                                              4
Recommendation

We recommend that the Director, FWS, develop and implement procedures for the Federal
Aid Program to validate, for financial reporting purposes, that costs were incurred by all
grantees prior to drawing down cash.

         FWS Response: FWS did not agree with this recommendation, stating that it has
controls to ensure that grantees withdraw funds only for costs incurred previously. FWS
further said that its controls included "[m]onthly reconciliations of withdrawals with
documentation of costs incurred provided to Service officials." FWS also said that the system
"as a whole provides reasonable assurance that the drawdowns are for costs incurred" and
that it planned to "consider additional steps to increase assurance that grantees drawdowns
are for costs incurred." FWS further said it would consider the feasibility of sampling a
limited number of FY [fiscal year] 2000 drawdowns to verify that "withdrawls were for costs
incurred."

        OIG Reply: We believe that as part of FWS’s financial records, documentation of
the fact that disbursements were used only for costs previously incurred is essential, and the
actions proposed by FWS meet the intent of this recommendation.

C. Procedures To Ensure Accurate Construction in Progress

The Construction-in-Progress general ledger account was overstated by $114.5 million. The
account was used to accumulate building and structure construction project costs that had not
been completed as of the date of the financial statements. The overstatement occurred because
FWS did not have procedures to ensure that charges to the account were reviewed promptly
and that the charges were for FWS’s building and structure assets (real property) that would
meet FWS’s $50,000 capitalization threshold. As a result, the account contained costs of
$13.8 million that were for completed projects that had not been moved to real property
accounts or that had not been expensed as appropriate; costs of $17.9 million that were for
misclassified operations, maintenance, and expendable property costs; and costs of $82.8
million that were not for real property, such as hazardous waste cleanup costs. On December
15, 1999, FWS issued additional real property reconciliation procedures that addressed these
issues.

Recommendation

We recommend that the Director, FWS, ensure that the additional real property procedures are
implemented as designed.

       FWS Response: FWS stated that it had designed and implemented the real property
reconciliation procedures in December 1999.




                                              5
STEWARDSHIP AND PERFORMANCE MEASURES

We considered FWS’s internal controls over the required supplementary stewardship
information (pages 23-35) by obtaining an understanding of FWS’s internal controls relating
to the preparation of the required supplementary stewardship information to determine whether
these internal controls had been placed in operation and performed tests of these controls as
required by Bulletin 98-08. However, providing assurance on these internal controls was not
an objective of our audit, and accordingly, we do not provide assurance on such controls.

With respect to the internal controls related to the performance measures reported in FWS’s
program highlights (pages 1-21), we obtained an understanding of the design of significant
internal controls related to the existence and completeness assertions as required by Bulletin
No. 98-08. Our procedures were not designed to provide assurance on internal controls over
reported performance measures, and accordingly, we do not provide an opinion on such
controls.

REPORT ON COMPLIANCE WITH LAWS AND REGULATIONS

Our audit was conducted in accordance with the "Government Auditing Standards," issued by
the Comptroller General of the United States, and with Office of Management and Budget
Bulletin 98-08.

Management of FWS is responsible for complying with laws and regulations applicable to that
agency. As part of obtaining reasonable assurance about whether FWS’s principal financial
statements are free of material misstatement, we performed tests of FWS’s compliance with
certain provisions of laws and regulations, noncompliance with which could have a direct and
material effect on the determination of financial statements amounts and certain other laws and
regulations specified in Bulletin 98-08, including the requirements referred to in the Federal
Financial Management Improvement Act of 1996. However, providing an opinion on
compliance with certain provisions of laws and regulations was not an objective of our audit,
and accordingly, we do not express such an opinion.

The results of our tests of compliance with laws and regulations discussed in the preceding
paragraph exclusive of the Federal Financial Management Improvement Act disclosed no
instances of noncompliance that are required to be reported under the "Government Auditing
Standards" or Bulletin 98-08.

Under the Federal Financial Management Improvement Act, we are required to report
whether FWS’s financial management systems were in substantial compliance with
requirements for Federal financial management systems, Federal accounting standards, and
the U.S. Government Standard General Ledger at the transaction level. To meet these
requirements, we performed tests of compliance using the implementation guidance for the
Federal Financial Management Improvement Act included in Appendix D of Bulletin 98-08.




                                              6
The results of our tests disclosed no instances in which FWS’s financial management system
was not in substantial compliance with these three requirements.

CONSISTENCY OF OTHER INFORMATION

We reviewed the financial information presented in FWS’s program highlights (pages 1-21)
and supplementary information (pages 23-35) to determine whether the information was
consistent with the principal financial statements. Based on our review, we determined that
the information in the overview was consistent with the principal financial statements.

PRIOR AUDIT COVERAGE

We reviewed prior Office of Inspector General and General Accounting Office audit reports
related to FWS’s financial statements to determine whether these reports contained any
unresolved or unimplemented recommendations that were significant to FWS’s financial
statements or internal controls. We found that there were no reports issued by the Office of
Inspector General that contained significant unresolved or unimplemented recommendations
related to FWS’s financial statements or internal controls. The General Accounting Office,
however, issued, in February 2000, the letter "Financial Management Review of the U.S. Fish
and Wildlife Service’s Reported Allocation of Resources for its Refuge Program and New
Assistant Regional Manager Positions." The letter stated that FWS did not use its accounting
system to track the costs of the refuge program on a full-cost basis, as required by Department
of the Interior policy and Statement of Federal Financial Accounting Standards No. 4,
"Managerial Cost Accounting Standards." The General Accounting Office recommended that
FWS identify and accumulate direct and indirect costs, distribute indirect costs, and monitor
and evaluate the full cost of its outputs. FWS agreed with and, at the time of our review, was
implementing the recommendation as it related to its three mission goals but not as it related
to its refuge program.

OBJECTIVE, SCOPE, AND METHODOLOGY
Management of FWS is responsible for the following:

       - Preparing the principal financial statements and the required supplemental
information referred to in the Consistency of Other Information section of this report in
conformity with generally accepted accounting principles and for preparing the other
information contained in the 1999 Annual Report.

         - Establishing and maintaining an internal control structure over financial reporting.
In fulfilling this responsibility, estimates and judgments are required to assess the expected
benefits and related costs of internal control structure policies and procedures.

       - Complying with applicable laws and regulations.

We are responsible for the following:



                                              7
       - Expressing an opinion on FWS’s principal financial statements.

        - Obtaining an understanding regarding the effectiveness of the internal controls
based upon the internal control objectives contained in Bulletin 98-08, which require that
transactions be properly recorded, processed, and summarized to permit the preparation of the
principal financial statements and the required supplemental information in accordance with
Federal accounting standards; that assets be safeguarded against loss from unauthorized
acquisition, use, or disposal; and that transactions and other data that support reported
performance measures be properly recorded, processed, and summarized to permit the
preparation of performance information in accordance with criteria stated by management.

       - Testing FWS’s compliance with selected provisions of laws and regulations that
could materially affect the principal financial statements or the required supplementary
information.

To fulfill these responsibilities, we took the following actions:

       - Examined, on a test basis, evidence supporting the amounts disclosed in the
principal financial statements.

      - Assessed the accounting principles used and the significant estimates made by
management.

       - Evaluated the overall presentation of the financial statements.

        - Obtained an understanding of the internal control structure related to safeguarding
of assets; compliance with laws and regulations, including the execution of transactions in
accordance with budget authority; financial reporting; and certain performance measure
information reported in the Program Highlights.

        - Tested relevant internal controls over the safeguarding of assets; compliance with
laws and regulations, including the execution of transactions in accordance with budget
authority; and financial reporting.

        - Reviewed the internal controls relevant to the existence and completeness
assertions for systems producing the performance measures reported in the Program
Highlights.

       - Tested compliance with selected provisions of laws and regulations.

We did not evaluate all of the internal controls related to the operating objectives as broadly
defined in the Federal Managers’ Financial Integrity Act, such as those controls related to
preparing statistical reports and ensuring efficient operations. We limited our internal control
testing to those controls necessary to achieve the objectives outlined in our report on internal
controls.




                                               8
                                                                   APPENDIX 2


     STATUS OF AUDIT REPORT RECOMMENDATIONS

Finding/Recommendation
        Reference           Status               Action Required
   A.1, B.1 and C.1      Implemented.     No further action is required.




                                     12
